Cardholder Agreement
Defined Terms – The following terms have defined meanings in this agreement. “Account” means the credit Account regulated by
this agreement, “Card” means the plastic cards issued under this agreement, including the numbers printed on these plastic cards;
“we”, “us”, and “our” mean the financial institution appearing on the face of a Card; “you” and “your” mean anyone who signs an
application for this Account or is a guarantor of this Account, or who otherwise uses or authorizes use of the Card or the Account;
and “Approval Letter” means our letter to you approving your application and describing some of the terms of the Account (the
“Approval Letter” which is part of the agreement).
By signing, using or activating a Card, you accept the terms and conditions of this agreement and of the Approval Letter. If any
provision of this agreement is determined to be unlawful, the rest of the agreement will stand and the unlawful provision will be
deemed amended to conform to applicable law. All Cards are our property and must be returned to us immediately according to
our instructions, and we may repossess a Card at any time in our sole discretion.
Military Lending Act Disclosures Statement – Federal law provides important protections to Members of the Armed Forces and
their dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a Member of the Armed
Forces and his or her dependent may not exceed an annual percentage rate of 36 percent (36%). This rate must include, as
applicable to the credit transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold
in connection with the credit transaction; any application fee charged (other than certain application fees for specified credit
transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card account).
Please call us at (800) 221-3311 to receive disclosures orally.
1.

Promise to Pay – You agree to pay us the total amount of purchases, cash advances, finance charges or other fees or charges
which arise from use of a Card by you or any other person, unless the other person does not have actual, implied, or apparent
authority for such use and you receive no personal benefit from the use. You agree to be jointly and severally liable with
anyone else who has made the same promise.

2.

Credit Limit – Your credit limit is stated on the credit card carrier, as well as on your monthly statement. You promise to make
purchases and cash advances only up to your credit limit. Your promise to pay continues to apply even if the amount due
exceeds your credit limit. Obtaining credit in excess of your credit limit does not increase your credit limit. We can change your
credit limit at any time to any amount (including zero). We will state the new credit limit on your next monthly statement.

3.

Purchases and Cash Advances – You may use your card, up to your credit limit, to buy or lease goods, services or insurance
wherever the Card is honored. You may also use your Card to get a cash advance from participating financial institutions.
However, you agree not to use your Card for any transaction that is illegal under applicable federal, state or local law, and you
understand that any such use will constitute an event of default under this agreement. We are not responsible for the refusal of
anyone to honor your Card.

4.

Monthly Statements – We will send you a statement at the end of each billing cycle in which the Account has a balance. The
due date for your payment will be twenty-five (25) days after the last day covered by the statement.

5.

Payments – You agree to make the minimum monthly payments that are described in the Approval Letter, and to make all
payments on this Account at the address specified on your monthly statement. We may accept late payments, partial
payments, post-dated checks, or any form of payment containing a restrictive endorsement, without losing any of our rights
under this agreement. Our acceptance of checks or money orders labeled “payment in full” or words to that effect, will not
constitute an accord and satisfaction nor a waiver of any rights we have to receive full payment. Payments on your Account
that exceed the minimum payment due will be allocated first to the Account balance with the highest APR, and then to each
consecutive Account balance bearing the next highest APR, at the time payment is posted to your Account. Payments on your
Account that do not exceed the minimum payment due will be applied in the following order: finance charges, fees, any
applicable installment balance minimum amount due that is calculated separately from the minimum payment due, the Account
balance with the lowest APR, then to each consecutive Account balance bearing the next lowest APR at the time payment is
posted to your Account.

6.

Balance Computation Method – We figure the interest charge on your Account by applying the periodic rate, as stated in the
enclosed disclosure table, to the “average daily balance” of your account. To get the “average daily balance” we take the
beginning balance of your account each day, add any new purchases/advances/fees, and subtract any unpaid interest or other
finance charges and any payments or credits. This gives us the daily balance. Then, we add up all the daily balances for the
billing cycle and divide the total by the number of days in the billing cycle. This gives us the “average daily balance”.

10/17
LS9136

7.

Cash Advance Fee – Cash advances are subject to the cash advance fee stated in the enclosed disclosure table. The cash
advance fee is a finance charge and is imposed on the date of the cash advance. Interest does not accumulate on this fee. The
following transactions will be treated as cash advances:
A.
B.
C.
D.
E.

Using your Card to obtain cash from a participating Automated Teller Machine (“ATM”);
Using your Card to obtain cash from a participating financial institution;
Using a convenience check drawn on the Account;
Obtaining money orders, travelers checks, foreign currency, lottery tickets, casino chips, vouchers redeemable for cash
or similar items;
Balance transfers, if identified as cash advances on your Approval Letter

8.

Annual Fee – The annual fee, if there is one on the Account, is stated in the enclosed disclosure table. The annual fee is payable
whether or not you use the Card.

9.

Liability for Unauthorized Use – If you notice the loss or theft of your Card or a possible unauthorized use of your Card or
Account, you should write to us immediately at: P.O. Box 10409, Des Moines, IA 50306-0409, or call us at 1-800-234-5354. You
will not be liable for any unauthorized use that occurs after you notify us. You may, however, be liable for unauthorized use
that occurs before your notice to us. However, if you exercise reasonable care in safeguarding your card from risk of loss or
theft and, upon discovering the loss or theft promptly report the loss or theft to us, you will not be liable for any unauthorized
transactions. In any case, your liability will not exceed $50.

10. Default – You will be in default if you fail to make any minimum payment or other required payment by the date that it is due.
You also will be in default if you violate any other provision of this agreement and such violation materially impairs the prospect
of you paying the amount due on the Account. Upon default, we may demand immediate payment of the entire amount due on
the Account and we may enforce our right to this payment as permitted by law.
11. International Transactions – When you use your Card for a transaction denominated in a currency other than U.S. dollars, the
transaction amount will be converted into U.S. dollars by applying an exchange rate selected by the Card Association from
among the range of rates available in wholesale currency markets or the government-mandated rate on the date the
transaction is processed. The rate chosen may vary from the rate the Card Association itself receives. When you use your Card
in a transaction outside of the United States to make a purchase, obtain a cash advance, obtain a credit voucher, or reverse any
of these transactions, a finance charge equal to one percent (1%) of the amount of the transaction (expressed as a positive
number) will be assessed against your Account. The foreign transaction fee is imposed on the date of the transaction. Interest
does not accrue on the foreign transaction fee. “Card Association” means either VISA International or MasterCard International.
12. Credit Reporting – You authorize us to obtain credit reports on you when opening, renewing or reviewing your Account, and
you authorize us to disclose information regarding your Account to credit bureaus and other creditors who may inquire of us
about your credit standing. If you think we reported erroneous information to a credit reporting agency, write us at the
Cardmember Service address on your billing statement. We will promptly investigate the matter and, if we agree with you, we
will contact each credit reporting agency to which we reported and request a correction. If, after our investigation, we disagree
with you, we will tell you in writing or by telephone how to submit a statement to those agencies for inclusion in your credit
report.
13. Other Fees – The following charges will be charged to your Account as appropriate:
A. Late and Returned Payment Fees. The following charges may be imposed, if applicable:
 Late Payment Fee. A late payment fee, in the amount indicated in the enclosed disclosure table, may be imposed if
the required minimum payment due is not received by the due date listed on the monthly periodic statement.
 Returned Payment Fee. A returned payment fee, in the amount indicated in the enclosed disclosure table, may be
imposed if your payment is returned for any reason.
B. Replacement Cards, Copies, and Special Services. We may charge you a reasonable fee for issuing replacement cards,
expediting delivery of your card, an expedited payment method using a service representative, providing photocopies
and reprints that you request, and other special services as allowed by law.
14. Amendments – We may amend or cancel this agreement at any time by getting your consent as provided by law or by giving
you a notice of the amendments. Cards are property of the Financial Institution and must be returned at our request.

10/17
LS9136

YOUR BILLING RIGHTS:
KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Member Services
P.O. Box 10409
Des Moines, IA 50306-0409
In your letter, give us the following information:
 Account information: Your name and account number.
 Dollar amount: The dollar amount of the suspected error.
 Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
 Within 60 days after the error appeared on your statement.
 At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is
wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
 We cannot try to collect the amount in question, or report you as delinquent on that amount.
 The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
 While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
 We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
 If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
 If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if
you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.

10/17
LS9136

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase
price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement
we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
Member Services
P.O. Box 10409
Des Moines, IA 50306-0409
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

10/17
LS9136

